No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARK LEE WILLIAMS - PETITIONER
vs.
ARIZONA STATE BAR - RESPONDENT

CERTIFICATE OF SERVICE

Mark Lee Williams, Esq. SBN 022096
LAW OFFICE OF MARK L. WILLIAMS
969 N. Grand Ave. #1
Nogales, AZ 85621
Tel: (520) 287-4500
Email: markwilliamsesq@vahoo.com
Pro Se Petitioner

RECEIVED
AUG - <t 2021
gaBraSSM

<-• ,

'K

I, Mark Lee Williams, Pro Se Petitioner, certify that, on July 31, 2021, a copy
of the Petition for a Writ of Certiorari, Appendix to Petition for a Writ of Certiorari,
Certificate of Compliance, and a copy of this Certificate of Service in the above
captioned case was sent via email and first-class mail, postage prepaid, to the
following counsel:
Hunter F. Perimeter
Senior Bar Counsel
State Bar of Arizona
4201 N. 24th Street, Suite 100
Phoenix, AZ 85016-6266
(Attorney for Arizona State Bar)
I further certify that all parties required to be served have been served.
Dated: July 31, 2021

iMark Lee Williams, Esq.
Pro Se Petitioner

